<html>
<title> - FEDERAL AVIATION ADMINISTRATION OVERSIGHT OF COMMERCIAL SPACE TRANSPORTATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
     FEDERAL AVIATION ADMINISTRATION OVERSIGHT OF COMMERCIAL SPACE 
                             TRANSPORTATION

=======================================================================

                                (114-46)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
        
        
        
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-500 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
        
        
        


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                Columbia
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              ANDRE CARSON, Indiana
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
REID J. RIBBLE, Wisconsin            DINA TITUS, Nevada
MARK MEADOWS, North Carolina         SEAN PATRICK MALONEY, New York
RODNEY DAVIS, Illinois               CHERI BUSTOS, Illinois
MARK SANFORD, South Carolina         JULIA BROWNLEY, California
ROB WOODALL, Georgia                 MICHAEL E. CAPUANO, Massachusetts
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
RYAN A. COSTELLO, Pennsylvania       RICHARD M. NOLAN, Minnesota
MIMI WALTERS, California             JOHN GARAMENDI, California
BARBARA COMSTOCK, Virginia           PETER A. DeFAZIO, Oregon (Ex 
CARLOS CURBELO, Florida              Officio)
LEE M. ZELDIN, New York
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

George C. Nield, Ph.D., Associate Administrator for Commercial 
  Space Transportation, Federal Aviation Administration..........     5
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................     5
Michael Gold, Chair, Commercial Space Transportation Advisory 
  Committee......................................................     5
Michael Lopez-Alegria, Vice Chair, Commercial Space 
  Transportation Advisory Committee..............................     5
Taber MacCallum, Chief Technology Officer, World View Enterprises     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Peter A. DeFazio of Oregon..................................    28

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

George C. Nield, Ph.D............................................    33
Gerald L. Dillingham, Ph.D.......................................    42
Michael Gold.....................................................    63
Michael Lopez-Alegria............................................    70
Taber MacCallum..................................................    78

                       SUBMISSIONS FOR THE RECORD

Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office, responses to 
  questions for the record from Hon. Andre Carson, a 
  Representative in Congress from the State of Indiana...........    62

                        ADDITIONS TO THE RECORD

Statement of Vulcan Aerospace Corporation, submitted by Hon. Rick 
  Larsen, a Representative in Congress from the State of 
  Washington.....................................................    80
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  



     FEDERAL AVIATION ADMINISTRATION OVERSIGHT OF COMMERCIAL SPACE 
                             TRANSPORTATION

                              ----------                              


                        Wednesday, June 22, 2016

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. Before actually getting started, I ask unanimous consent 
that Members not on the subcommittee be permitted to sit with 
the subcommittee at today's hearing, offer testimony and ask 
questions. And without objection, so ordered.
    Good morning, and thank you all for being here. Today we 
will be examining the Federal Aviation Administration's 
oversight of commercial space transportation. We are at an 
exciting time in the aviation world. In the past few years, 
this committee has met regularly to discuss the advent of 
drones into the National Airspace System, and we are here this 
morning to talk about the burgeoning industry of commercial 
space transportation.
    Before we begin, I would like to note that yesterday the 
FAA released its long overdue final rule on small drones, and 
although we are continuing to review it in detail, I am very 
pleased that the rule focuses on safely integrating drones in 
operation today while providing flexibility to permit more 
advanced types of operations as technology improves. It is a 
very good step forward, I think.
    It has been 7 years since this subcommittee last held a 
hearing dedicated to this topic. Since that time, the space 
shuttle has been retired, leaving the United States without a 
domestic option to transport humans into space, and requiring 
NASA to pay millions of dollars per seat on Russian spacecraft.
    Private industry, with the support of the FAA and NASA, is 
working to fill this transportation gap, while developing new 
and innovative methods to transport passengers and cargo safely 
and efficiently into space. The result has been the domination 
of these commercial space industries by the United States in 
virtually all areas. United Launch Alliance, a joint venture of 
Lockheed Martin and Boeing, provides valuable and highly 
reliable launch services to the U.S. Government.
    Orbital ATK has operated five successful unmanned supply 
missions to the International Space Station, and we wish them 
well on their launch 2 weeks from today.
    SpaceX and Blue Origin are leading pioneers in the effort 
to bring down the cost of commercial space launches by reusing 
launch vehicles. Virgin Galactic, World View Enterprises, and 
XCOR seek to offer new and exciting experiences and bring space 
travel and tourism to the general public. These companies and 
many others contribute to a highly innovative industry 
advancing U.S. leadership in the field.
    I believe we are witnessing a major change in 
transportation, one that will match the energy and enthusiasm 
of the early days of barnstorming. These advances require the 
close cooperation and oversight of FAA's Office of Commercial 
Space Transportation, or AST. AST's mission is to protect the 
public, property, and the national security and foreign policy 
interests of the United States during commercial launch or 
reentry activities, and to encourage, facilitate, and promote 
U.S. commercial space transportation.
    Commercial space transportation is still an inherently 
risk-filled endeavor. Our hearing summary outlines two specific 
accidents, but there have been others. We want to ensure that 
AST and industry learn from these incidents in order to lay the 
foundation for a future commercial space transportation safety 
regulatory framework.
    In November 2015, Congress passed the U.S. Commercial Space 
Launch Competitiveness Act, which has helped position the 
industry in the United States to further expand and capitalize 
on our Nation's leadership in this field. We have invited you 
all here today to get a better sense of the state of the 
industry following enactment of this law and to learn about 
opportunities and challenges related to commercial space 
transportation.
    Though this is a newer topic to me and many on the 
subcommittee, much of the FAA's work in this area is performed 
in my district at the FAA's premier flagship technical facility 
in Egg Harbor Township, New Jersey. There, private companies 
are working with the FAA on a number of projects, including 
modeling of debris fields, simulating launches and reentries, 
utilizing the expertise of air traffic controllers, and testing 
communications systems between spacecraft and air traffic 
control.
    We appreciate all of the work that industry and FAA are 
doing at the FAA Tech Center in order to continue advancing 
safe commercial space transportation. As this subcommittee 
continues to assess the current state of the commercial space 
transportation industry, it is important that industry engage 
with members of this panel. I would also encourage all Members 
to reach out to our distinguished witnesses and others in the 
commercial space transportation field to learn more about how 
this transportation sector impacts each and every congressional 
district.
    I am sure this will be an interesting hearing, and I very 
much look forward to hearing from our distinguished panel of 
witnesses. Now I would like to yield to Mr. Larsen for any 
statements he may make.
    Mr. Larsen. Thank you, Mr. Chairman, and thanks for calling 
this hearing to take a closer look at the FAA's oversight of 
commercial space transportation.
    This committee has not convened a hearing on commercial 
space transportation since 2009, and I think we can all agree 
that there have been many exciting advancements in the industry 
that have occurred over the last 7 years, so I think it is 
really ripe for us to take a look.
    And as we have seen recently, there is a great deal of 
promise with the expansion of the commercial space industry. 
Take, for instance, Blue Origin's success this weekend in 
landing the New Shepard rocket for the fourth time. This 
reusable capsule could be used in the future for human 
spaceflight, or SpaceX, which has been able to land its Falcon 
9 rocket on an unmanned ship after successful missions and 
deliver communication satellites into orbit.
    But the promise of commercial space does not end there. 
Several other companies, including many in my home State, are 
venturing into unchartered territory when it comes to mining 
asteroids, developing reusable vehicles, repairing satellites 
in orbit and other research that we once thought was 
impossible. In fact, this week, in Seattle, there is a 
conference on space where many of the leading companies in the 
industry are showcasing the latest in commercial space, 
including commercial space transportation.
    But with that immense promise comes the need to make sure 
that we have a robust safety framework in place, and it is not 
an easy thing to achieve particularly as Congress is cautious 
to not overregulate this nascent industry. The commercial space 
industry reminds me a lot of what we are currently confronting 
with unmanned aircraft systems. Both industries are users of 
the national airspace, experiencing fast-paced growth, and both 
in their relative infancy.
    As technology rapidly evolves, the regulatory side is 
continually playing catchup. The small UAS rule, the FAA 
announced yesterday, is representative of this challenge. The 
FAA had to balance the interest of the public and of the uses 
of the national airspace while at the same time being careful 
not to stifle the industry.
    As the commercial space industry continues to evolve, we 
are going to face similar challenges, so I am very curious to 
hear what our witnesses' perspectives are on how the Government 
and industry can work together to build consensus around the 
regulatory framework that fosters innovation while achieving 
the highest possible level of safety. I am also interested to 
hear some perspectives on how we can safely and efficiently 
integrate commercial space launches into our air traffic 
control system.
    Since 1989, the FAA has licensed or permitted over 280 
commercial space launches. Those numbers are forecasted 
certainly to significantly increase in the coming years. What 
that means is that FAA's air traffic controllers will need to 
coordinate existing operations with those of the commercial 
space industry, and of course, throw into that, UAS. It will 
not be an easy undertaking.
    So to me, it seems the most prudent way to accomplish that 
is by having all of our air traffic control operations reside 
with the FAA, the agency which is also responsible for 
licensing these commercial space launches. And while it does 
not fall under the jurisdiction of this committee, I would be 
remiss if I did not mention my interest in commercial space 
exploration and its impacts on national security.
    As a member of the Armed Services Committee, I urge all of 
us to pay close attention to how the DOD leverages the private 
sector for national security missions, including launches. And 
as commercial capabilities and satellite imaging and 
communications continue to improve, the DOD's use of those 
services will also grow.
    Thus, I consider it vital that the DOD be given a seat at 
the table when the FAA exercises oversight of commercial space 
transportation, given that national security interest is at 
stake as well. So it is a very exciting time for commercial 
space and commercial space transportation, and I look forward 
to learning more this morning. And with that, I want to again 
thank the chairman for holding this hearing, and yield back.
    Mr. LoBiondo. Thank you, Mr. Larsen. I would now like to 
recognize Mr. DeFazio if you have any remarks you would like to 
make.
    Mr. DeFazio. Well, thanks, Mr. Chairman. I will be brief. 
You know, I am hoping the panel will--I haven't had a chance to 
read testimony, but will discuss what our role should be after 
2023, when the moratorium on FAA regulating safety expires, if 
we are looking at a robust, civilian basically tourist- or 
science-based, commercially launched vehicles into space.
    And then secondly, you know, I have a concern, and some 
will remember this, for many, many, many years there was a 
mandate that the FAA both promote and regulate the aviation 
industry. For years I tried to change that, and in fact, during 
one reauthorization, my amendment had been defeated, and people 
said there is no conflict and there was no problem.
    Unfortunately, the ValuJet crash happened. We were in 
conference, and I get a call saying: How would we put your 
provisions in the bill? I didn't get everything I wanted, but I 
got most of it. There is an inherent conflict between promotion 
and regulation and oversight of safety, and I think that we 
need to look very carefully at that, and I hope that some of 
the witnesses can address that.
    I mean, it would be more appropriate to say commerce will 
promote, FAA will regulate, in my opinion, but I would be 
interested in the opinion of those who are going to testify.
    So thank you really for holding this hearing today, Mr. 
Chairman. I think it is a very important topic.
    Mr. LoBiondo. Thank you, Mr. DeFazio. Now we will turn to 
our distinguished panel of witnesses today.
    We have Dr. George Nield, Associate Administrator of 
Commercial Space Transportation, Federal Aviation 
Administration; Dr. Gerald Dillingham, Director of Physical 
Infrastructure Issues for the United States Government 
Accountability Office; Mr. Michael Gold, Chairman of Commercial 
Space Transportation Advisory Committee; Mr. Michael Lopez-
Alegria, Vice Chairman of Commercial Space Transportation 
Advisory Committee; and Taber MacCallum, chief technology 
officer of World View Enterprises.
    I thank you all for being here today. I would also like to 
ask unanimous consent that our witnesses' full statements be 
included in the record. Without objection, so ordered.
    And to the witnesses, since your written testimony is in 
the record, if you can try to come close to the 5 minutes, that 
would be helpful. But Dr. Nield, you are recognized.

 TESTIMONY OF GEORGE C. NIELD, PH.D., ASSOCIATE ADMINISTRATOR 
     FOR COMMERCIAL SPACE TRANSPORTATION, FEDERAL AVIATION 
ADMINISTRATION; GERALD L. DILLINGHAM, PH.D., DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
 MICHAEL GOLD, CHAIR, COMMERCIAL SPACE TRANSPORTATION ADVISORY 
COMMITTEE; MICHAEL LOPEZ-ALEGRIA, VICE CHAIR, COMMERCIAL SPACE 
 TRANSPORTATION ADVISORY COMMITTEE; AND TABER MACCALLUM, CHIEF 
           TECHNOLOGY OFFICER, WORLD VIEW ENTERPRISES

    Dr. Nield. Chairman LoBiondo, Ranking Member Larsen----
    Mr. LoBiondo. Can you--I think your mic needs to be flipped 
on.
    Dr. Nield. Chairman LoBiondo, Ranking Member Larsen, and 
distinguished members of the subcommittee----
    Mr. LoBiondo. I am sorry. Could you pull a little closer?
    Dr. Nield. Thank you. Chairman LoBiondo----
    Mr. LoBiondo. Thank you.
    Dr. Nield [continuing]. Ranking Member Larsen, and 
distinguished members of the subcommittee, I appreciate the 
opportunity to speak with you this morning about the FAA's 
oversight of commercial space transportation. In my testimony 
today, I will briefly describe the FAA's responsibilities, 
discuss recent developments in commercial space transportation, 
and identify some of our key challenges.
    The FAA has exercised oversight of commercial space 
transportation since 1995 when the Office of Commercial Space 
Transportation was established as one of the FAA's lines of 
business. Our mission is to protect the public safety, safety 
of property, and national security and foreign policy interests 
of the United States during commercial launch and reentry 
activities and to encourage, facilitate, and promote U.S. 
commercial space transportation.
    This dual mission is an important part of our culture. 
Although the FAA has licensed or permitted 290 launches to 
date, there have never been any fatalities, serious injuries, 
or significant property damage to the general public.
    This is an exciting time for commercial space. Following 
the retirement of the space shuttle, SpaceX and Orbital ATK 
have been delivering food, clothes, and scientific equipment to 
our astronauts on board the International Space Station as part 
of the commercial cargo program. Separately, Boeing and SpaceX 
have been awarded contracts under the commercial crew program 
to take American astronauts to the ISS beginning as early as 
2017. Although these are NASA contracts, the FAA is a critical 
partner in both programs.
    We are also starting to see some very impressive advances 
in technology. Blue Origin has demonstrated that it can launch 
and land the same rocket numerous times on suborbital flights. 
SpaceX has shown that it can deliver satellites to orbit and 
then successfully recover the first stages of its rockets, 
touching down either on land or on a drone ship in the Atlantic 
Ocean. These are incredible achievements that demonstrate both 
the engineering prowess and the capability for innovation that 
are hallmarks of American industry.
    One of the key challenges that we are facing today involves 
new and nontraditional space operations. Currently, the FAA 
licenses commercial launches and reentries, but does not 
regulate activities in orbit or beyond. For example, if a 
company wanted to launch a payload to the moon, the FAA would 
license the launch but not what happens on the lunar surface. 
However, article VI of the Outer Space Treaty requires the 
Government to authorize and continuously supervise all 
nongovernmental activities in space.
    Last fall, Congress directed the Office of Science and 
Technology Policy to develop a process to address this issue.
    After extensive discussions, both within the interagency 
community and with industry, a plan was developed and has now 
been forwarded to Congress. Under the recommended legislative 
proposal, the FAA would be able to grant mission 
authorizations, consistent with the international obligations, 
foreign policy, and national security interests of the United 
States.
    A second challenge concerns how best to deal with the 
growing problem of orbital debris. To operate safely in space, 
operators must know where their systems are and when they have 
a possibility of colliding with other objects. Currently, the 
Department of Defense collects space surveillance data and 
sends out collision warnings when needed. Congress directed the 
Secretary of Transportation, in concurrence with the Department 
of Defense, to provide a report on the feasibility of a civil 
agency taking on this responsibility. We hope to provide this 
report to Congress soon.
    Finally, as the commercial space transportation industry 
continues to grow, we must ensure that we maintain our ability 
to keep pace. The FAA appreciates that the Appropriations 
Committees have so far provided the full fiscal year 2017 
appropriations request for our office. This funding is critical 
to the work that we are doing, and we are grateful for your 
continuing guidance and support.
    In closing, I would like to recognize my predecessor, the 
late Patti Grace Smith who passed away just a few weeks ago. A 
true visionary, Patti once observed, ``Space is an attitude. It 
is a set of capabilities, an acceptance of risk-taking 
activities to uncover potential breakthroughs and endless 
possibilities. That is precisely why we love it.''
    Mr. Chairman, this concludes my prepared remarks. I would 
be pleased to answer any questions that you may have.
    Mr. LoBiondo. Thank you very much.
    Dr. Dillingham, you are recognized.
    Dr. Dillingham. Good morning, Mr. Chairman, Ranking Member 
Larsen, Ranking Member DeFazio, Mr. Duncan, and other members 
of the subcommittee.
    My testimony this morning focuses on two areas. First, the 
developments in the industry, and second, the related 
challenges FAA faces in overseeing and promoting the industry.
    Regarding the developments in the industry. As Dr. Nield 
has testified, one of the important developments in the 
industry in recent years is that FAA has been licensing and 
permitting increasing numbers and types of launches. The 
expansion includes moving from exclusively single-use launch 
vehicles to suborbital reusable vehicles. This expansion 
includes changes in the launch industry that are bringing 
significant changes to FAA's oversight, including determining 
whether and when to regulate the safety of crew and spaceflight 
participants and issues related to the increased workload for 
licensing and permitting launches.
    Regarding the regulation of safety. In 2014, FAA released a 
set of recommended practices on human spaceflight occupant 
safety. Currently, FAA is working with the industry to develop 
voluntary consensus standards that are needed to implement the 
agency's recommended practices.
    Regarding the second challenge, which focuses on increasing 
workload for FAA, the challenge includes licensing new and more 
complex types of vehicles and technologies, such as where 
companies are developing hybrid launch systems, which have both 
aircraft and rocket powered components. This challenge also 
includes licensing more complex launch sites. Launch sites 
traditionally have been located in coastal areas at Federal 
launch facilities. FAA is licensing more non-Federal launch 
sites, and in 2014, FAA licensed an inland launch site that is 
collocated at a commercial airport in Midland, Texas.
    The potential impact of the challenges could have far 
reaching implications. For example, the expansion could affect 
the Federal Government's overall liability exposure and 
indemnification for launches. In general, by increasing the 
volume of launches and reentries and with the introduction of 
new types of launch vehicles, the probability of an accident 
occurring also increases.
    A catastrophic accident could result in third-party losses 
over the maximum probable loss, or MPL, which is now capped at 
$500 million per launch and could in turn invoke Federal 
indemnification. In our July 2012 report, we found that FAA's 
MPL methodology, which was established in the 1980s, should be 
reviewed and updated. Given the advances that have taken place 
in catastrophic modeling, we recommended that FAA undertake 
such a review.
    Congress subsequently mandated the FAA to review its MPL 
methodology and report back to it by April 2016. To date, FAA 
has not submitted the required report. Another concern related 
to the expanding commercial launch industry is FAA's budget 
request and resource needs. In 2015, we found that FAA 
generally based its budget submission on the number of launches 
that it was projecting for the following year. But during 6 of 
the 10 years from fiscal year 2005 to 2014, the actual number 
of licensed and permitted launches was much lower than 
projected. For 2016, FAA projected over 30 launches and 
reentries. To date, there have been 13 launches in fiscal year 
2016.
    We recommended that FAA provide more detailed information 
in its budget submission about the various launch related 
activities and overall workload. In our review of FAA's 2017 
budget submission, we found that FAA had provided more detailed 
information. We plan to continue to work with FAA to assess 
what other steps they are taking to measure their commercial 
space launch workload and to provide that critical information 
to Congress to assist it in its oversight.
    Mr. Chairman, Ranking Member Larsen, and members of the 
committee, that concludes my prepared statement.
    Mr. LoBiondo. Thank you, Dr. Dillingham.
    We will now turn to Mr. Gold. You are recognized.
    Mr. Gold. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, distinguished members of the subcommittee, and 
excellent subcommittee staff for this opportunity to discuss 
critical issues facing the FAA AST and the commercial space 
industry.
    My name is Mike Gold, and I am the Chairman of the 
Commercial Space Transportation Advisory Committee, or COMSTAC, 
a Federal advisory committee comprised of executives from a 
wide variety of aerospace corporations.
    Before I delve into the challenges and opportunities that 
the commercial space transportation industry faces, I would 
like to take a moment, like Dr. Nield, to acknowledge the 
passing of his predecessor, Patti Grace Smith. Ms. Smith 
initially appointed me to the COMSTAC and served as the 
Associate Administrator of Commercial Space Transportation for 
an unprecedented 11 years. Ms. Smith was a beloved and well 
respected leader in the commercial space world who fostered an 
environment of growth, innovation, and cooperation between 
industry and Government that we are still enjoying today.
    It is actually appropriate that I begin my testimony with a 
reference to Ms. Smith because I first met her at a meeting 
during which we were attempting to address the issue of private 
sector operations in low Earth orbit, or LEO. At that meeting, 
I was told the AST has authority for commercial space 
transportation launches to orbit as well as reentries from 
orbit but that no Government agency has authority over private 
sector operations in or beyond LEO.
    Sixteen years later, we have still failed to answer this 
basic question, and I come before you today begging for a 
resolution. This problem stems from article VI of the Outer 
Space Treaty, ratified by the U.S. in 1967, which requires 
countries to provide authorization and continuing supervision 
of their private sector space activities. The U.S. signed the 
Outer Space Treaty, creating an obligation for the continuing 
supervision of nongovernmental entities, but we failed to craft 
a mechanism for such supervision to take place.
    This created a potential regulatory quagmire that domestic 
companies are already suffering from. Fortunately, a simple 
effective solution is available. Congress should, as soon as 
possible, direct the AST to update its regulations to support a 
mission licensing process. The mission licensing approach, or 
some iteration thereof, could mirror the AST's existing payload 
review procedures and would be limited to requiring only basic 
information, such as if the payload or planned activity will 
conform to international treaty obligations or interfere with 
national security interests.
    The requirement for continuing supervision would be 
explicitly met by inserting a proviso into every mission 
license for the company to inform the AST if they experience a 
material change to their activity. This concept would fully 
address the continuing supervision requirement, via a benign 
registration-based regime. Even if there were no Outer Space 
Treaty, establishing a simple, efficient means of registering 
domestic commercial space activities in and beyond LEO would 
make sense to prevent potential conjunctions and other forms of 
harmful interference between domestic and foreign outer space 
activities. This issue must be resolved, and it must be 
resolved with alacrity.
    In addition to chairing the COMSTAC, I am also a vice 
president of Washington operations for Space Systems Loral, the 
world's most prolific commercial satellite manufacturer. As you 
have seen in the videos, which have been playing in the 
background, we are about to enter a new era of robotic 
satellite servicing, wherein satellites are no longer built on 
Earth and then disposed of, but instead are refueled, 
refurbished, and enhanced while still in orbit.
    This new world of satellite 2.0 will create a revolution in 
capabilities, impacting every aspect of our daily lives in ways 
that we cannot now even begin to imagine. However, what I can 
predict with utter certainty is that the companies and 
countries that are leaders in satellite servicing and orbital 
assembly will enjoy an overwhelming competitive edge over 
nations that have fallen behind.
    The Defense Advanced Research Projects Agency, or DARPA, 
and NASA each have their own pilot programs to demonstrate 
satellite servicing. But in order to transition such 
capabilities to the private sector and to make the U.S. a 
global leader, more support, programs, and funding are needed, 
and the Government must not immediately throw up a regulatory 
roadblock by failing to address article VI's continuing 
supervision requirement.
    Moreover, I would be remiss if I didn't use this 
opportunity to also raise the COMSTAC's concern over funding 
shortfalls at the AST. The workload at the AST continues to 
increase rapidly, far exceeding the relatively meager growth in 
the AST's budget. Without proper funding, I fear the AST will 
soon simply run out of bodies to handle their ever increasing 
workload, resulting in licensing and other administrative 
delays that could substantially hamper commercial space 
transportation development and encourage companies to move 
their operations overseas.
    At nearly every COMSTAC meeting, the committee has 
recommended support for increased AST funding. I cannot think 
of another example where industry has uniformly and 
consistently called for increasing funding for a regulatory 
agency, and this situation is both a tribute to Dr. Nield's 
leadership as well as a warning sign regarding the dire need 
for additional resources.
    Again, I appreciate this opportunity to testify. I look 
forward to answering your questions, and I urge the 
subcommittee to take expeditious action to ensure that in the 
future, commercial space companies can focus more on launches 
and less on lawyers.
    Mr. LoBiondo. Thank you, Mr. Gold.
    Mr. Lopez-Alegria, you are recognized.
    Mr. Lopez-Alegria. Thank you, Chairman LoBiondo, Ranking 
Member Larsen, and Ranking Member DeFazio, and members of the 
subcommittee. Thank you for organizing the hearing and allowing 
me to offer some thoughts as the Vice Chair of the COMSTAC. 
Compared to the esteemed Chair of the COMSTAC----
    Mr. LoBiondo. Excuse me, could you pull your microphone a 
little closer.
    Mr. Lopez-Alegria. Hello, test. Is this better?
    Mr. LoBiondo. Much better.
    Mr. Lopez-Alegria. OK.
    Mr. LoBiondo. Thank you.
    Mr. Lopez-Alegria. Compared to Mr. Gold, I am a latecomer 
and a rather reluctant recruit to commercial space. In the 
summer of 2006, I was a NASA astronaut in Baikonur, Kazakhstan, 
waiting to launch to the International Space Station on a 
Russian Soyuz rocket. Not 2 years earlier, a commercially built 
hybrid launch system consisting of a strange mothership 
airplane and a rocket-powered glider attached to its belly took 
off from the Mojave Air and Space Port. After detaching from 
the mother ship, the rocket blasted its way to an altitude of 
100 kilometers, recognized the boundary of space, and then its 
pilot made a glided landing on the same runway from which it 
had departed. Five days later it happened again, clinching the 
Ansari X Prize and signaling the dawn of the commercial space 
age.
    Back in Baikonur, I was scheduled to ride share the Soyuz 
with someone bearing the same name, Anousheh Ansari. I was 
honestly none too happy about it. Space was the realm of 
professionals, and I didn't spend all that time training to 
babysit a tourist.
    But in the 10 or so days that I spent in space with 
Anousheh, my views on space tourism were forever altered. As 
the first person to blog from orbit, she reached tens of 
thousands of people who otherwise wouldn't have cared about 
ISS, about NASA, or about space. She sparked imagination in 
adults and inspired kids. She made people look up instead of 
looking down. She represented a wonderful idea: the 
democratization of access to space.
    I am mindful that we are a long way from being able to hop 
on a rocket like we take Uber or Southwest, but we are 
starting. It is an oft used but nonetheless valid analogy. 
Commercial human spaceflight today is where commercial aviation 
was in the 1920s. As of today, something like 550 people in the 
history of humanity have been above 100 kilometers. In the next 
several years, that number will double, and growth in the 
following decades will be exponential.
    Make no mistake, space is a tricky business. Massive 
amounts of energy are focused to propel a spacecraft in its 
intended direction during launch and insertion, and the same 
energy must later be carefully and precisely shed for deorbit 
and landing. But what was once the domain of only nation-states 
is now a small but dynamic industry where entrepreneurship, 
innovation, and efficiency are leveraging the advantages 
brought about by computer-aided technologies to make business 
cases close and unleash the competitive forces of free markets 
to start a new kind of space race.
    A threat to any nascent industry is overregulation that 
might stifle innovation and cut off potential solutions to 
difficult technical problems. Per the provisions of the 
Commercial Space Launch Amendments Act of 2004, and subsequent 
extensions, while Dr. Nield's office effectively protects 
health and safety of uninvolved public and the safety of 
property, it is not currently allowed to issue regulations on 
occupant safety in commercial human spaceflight.
    As a pilot and an astronaut, I can assure you that a robust 
safety culture is an important part of any flight operation, 
and commercial space is no different. While Congress has wisely 
directed the FAA to step aside and let industry take its first 
baby steps, it is incumbent upon that industry to demonstrate 
their willingness and ability to self-regulate. The development 
of voluntary industry consensus standards serves just such a 
purpose, and these standards can later serve as the building 
blocks of regulation once an appropriate amount of experience 
is gained and data collected, and rulemaking is therefore 
allowed.
    I would admit that it has been a bit of a struggle to 
convince a disparate group of companies whose vehicle designs 
vary greatly in size, shape, and even destination to come to 
the table to work on something that doesn't immediately 
positively impact their bottom line. But I can honestly say 
that we are converged and heading in the right direction.
    An important element of NASA's safety culture is effective 
training. For over 40 years, a key tool in preparing members of 
an astronaut corps with backgrounds that include not only 
pilots but also scientists, engineers, and doctors, has been 
flight in high-performance military aircraft. Exposure to 
physiological stressors, wearing unfamiliar gear such as a 
helmet, oxygen mask, and other equipment, and using the concept 
of cockpit resource management to work as a team to make quick 
decisions with real consequences, all combine to make this type 
of training an excellent means to prepare nonaviators for space 
missions.
    As applied to commercial spaceflight, such an experience 
would reduce the risk of a potentially safety compromising 
outcome from a first-time flier, and might also be used as an 
entry level and affordable trial to help inform a potential 
spaceflight participant's decision on pursuing a suborbital 
flight.
    There are several companies that are interested in 
providing such training, but since these military aircraft fall 
in the experimental category, they are prohibited from being 
used for compensation or hire. If stringent criteria that 
establish relevance to commercial spaceflight and that 
demonstrate superior levels of instructor pilot proficiency and 
aircraft maintenance history are met, it is well within the 
Secretary's purview, under the obligation to encourage, 
facilitate, and promote commercial spaceflight, to support 
legislation or rulemaking that would allow such operations.
    I firmly believe this is an important addition to the 
commercial spaceflight industry, and I thank you for this 
opportunity to testify and look forward to hearing questions 
from the subcommittee.
    Mr. LoBiondo. All right. Thank you very much.
    Mr. MacCallum, you are recognized.
    Mr. MacCallum. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, Ranking Member DeFazio, members of the subcommittee.
    FAA's oversight, regulation, and promotion of commercial 
space transportation has fostered a strong and growing American 
industry. The human spaceflight regulations that govern large 
segments of our industry are currently temporary and I believe 
should be made permanent.
    This impermanence and subsequent uncertainty is one of the 
largest factors influencing the future success of our industry. 
Additionally, the industry's growth will require the FAA to 
seamlessly incorporate routine commercial space operations into 
the National Airspace System, without which we run the risk of 
a conflict between airports, airlines, and the commercial space 
industry.
    I will explain three actions that Congress can take to 
continue to foster the commercial space industry and protect 
the public's interest.
    First, some background. I am a founder and the CTO of World 
View Enterprises. Our Arizona-based company is the operator of 
Spaceport Tucson and is developing and operating balloon-based 
vehicles working at the edge of space. Like an ice cube 
floating on water, our vehicles float on top of the Earth's 
atmosphere. Our vehicles have made numerous flights to high 
altitudes for research, and we are the world's record holders 
for human flight under a balloon, flying to 136,000 feet.
    Here is Virgin Galactic's SpaceShipOne aircraft plus rocket 
system designed to take spaceflight participants to the edge of 
space in a suborbital rocket ride. Blue Origin's New Shepard 
rocket uses a vertical take-off approach to provide 
participants with a spaceflight experience. The World View 
Voyager capsule, will ascend to the edge of space under a large 
balloon shown here. All three of these companies' human 
spaceflight operations are regulated by the FAA Office of 
Commercial Space Transportation with whom we have worked for 
many years. I am happy to say that the FAA Associate 
Administrator responsible for this office, Dr. Nield, runs a 
truly great organization.
    Thank you for the opportunity to convey an industry's 
perspective on FAA oversight of commercial spaceflight. 
Spaceflight operations involving humans, called spaceflight 
participants, are regulated under a regime based on the 
participants being informed of the risks and formally 
consenting to them. The regulations provide extensive 
protection of the uninvolved public, protection of property, 
and safe integration into the National Airspace System.
    This informed consent regime ingeniously fosters 
innovation, technology development, and investment by creating 
a market for tourists, researchers, and astronauts to fly in 
space. This, like other tourism or sporting activities, such as 
skydiving, paragliding, and scuba diving, that involve informed 
consent, waivers, and releases. Members of the public have the 
right and freedom to voluntarily engage in activities where 
they believe the benefits outweigh the informed risks.
    However, unlike skydiving, the regime for human spaceflight 
operation is temporary, called the learning period. It is 
subject to extension by Congress, and under certain conditions, 
all or part of this informed consent regime can be ended by the 
FAA.
    The idea behind the learning period was that a time will 
come when the entire human commercial spaceflight industry 
should be transitioned to a regime in which the safety of a 
spaceflight participant is regulated. The informed consent 
regime is creating an industry and should not be subject to 
termination. At the same time, there is a desire and 
longstanding vision, as we have heard, to see the commercial 
space industry evolve into routine operations with the success 
and safety of the commercial airline industry.
    I believe that the best solution is for two regulatory 
regimes to permanently exist in parallel. The existing informed 
consent regulatory regime or license and a new extended 
license, a regulatory regime that includes spaceflight 
participant safety. An extended license would be required for 
operations that constitute common carriage under Federal 
aviation regulations.
    For example, Virgin Galactic could offer regular 1-hour 
service from New York to Sydney under an extended license. For 
services whose destination is space itself, common carriage 
does not apply, and the current license protecting the public 
property and national airspace is appropriate. Voluntarily 
garnering an extended license for such activities would confer, 
I believe, a great competitive advantage to operators.
    It is in the Government's interest to maintain our 
country's leadership in aerospace by creating a stable yet 
flexible regulatory regime. I encourage Congress to take the 
lead in this area with three actions.
    First, make the informed consent license permanent; second, 
direct the FAA to develop an extended license to include 
participant safety; and third, make it a high priority for the 
FAA to seamlessly incorporate routine commercial space 
operations into the National Airspace System.
    Thank you very much. I look forward to your questions.
    Mr. LoBiondo. All right. Thank you very much. I will now 
turn to Mr. Larsen for questions.
    Mr. Larsen. Thanks. Mr. MacCallum, thanks for ending on 
those notes about actions to take. Is it your opinion that FAA 
could do these--take these actions with the current learning 
period or moratorium that Congress has in place through 2023?
    Mr. MacCallum. I believe that the FAA could develop an 
extended license, one that involved the safety of human 
spaceflight participants in parallel right now. And one of the 
benefits of that is it allows the voluntary industry standards 
to move from a voluntary basis within the current license 
regime into being part of that extended license.
    I do believe, for the sake of industry stability and 
investment, that ending the impermanence of the current license 
regime would be beneficial, especially in the context of 
developing a permanent license that does involve the safety of 
participants.
    Mr. Larsen. Dr. Nield, would you agree? What would be your 
answer to my question? Would the FAA be able to move forward on 
these kinds of recommendations without lifting the moratorium?
    Dr. Nield. Our understanding of the current law is that 
there is a moratorium in place, the learning period which lasts 
until 2023, and that specifically is intended to prevent the 
FAA from issuing regulations that are designed to ensure the 
safety of the flight crew or spaceflight participants. So we 
believe that would preclude us from issuing new regulations.
    Now, we certainly can work with industry on voluntary 
consensus standards, and that is what we are planning to do.
    Mr. Larsen. From an industry perspective, are voluntary 
consensus standards enough? Mr. MacCallum.
    Mr. MacCallum. I believe all active industries will self-
regulate, and putting together consensus standards helps create 
a unified baseline. However, we see so many different 
technologies that these standards must, by necessity, end up 
being performance standards rather than trying to regulate 
technology. Because of that and this situation that we are in, 
that is why I think both regimes are beneficial, allowing 
industry to graduate into a more regulated environment where 
they can.
    I cannot speculate on the exact points of the law. I would 
hope that the FAA would be able to begin creating a parallel 
regulatory regime that the industry can voluntarily move into, 
but that would be a point of law I am not an expert on.
    Mr. Larsen. Dr. Dillingham, can you discuss a little bit 
more the issues brought up about the liability exposure the FAA 
would have with regards to the issues that you brought up in 
your report? You talked to them a little bit in your testimony. 
Can you provide a little more detail about it?
    Dr. Dillingham. Yes, sir. There is a three-tier insurance 
scheme for commercial space. At the first level is the maximum 
probable loss insurance that is required of the launch, and 
that is set on an individual basis by the characteristics of 
the launch by FAA. If that probable loss, if that loss exceeds 
the MPL that is capped at $500 million now, then the Federal 
indemnification comes into play, which is a little bit more 
than $3 billion, and if the loss or the damage exceeds that, 
the third level goes to the launch company itself.
    The problem with that, from our perspective, is that the 
calculation, the methodology that FAA uses to establish where 
that maximum probable loss is, is certainly dated by a few 
decades, and we have asked them to update that because that 
determines when the Feds become liable for the loss.
    Mr. Larsen. When the taxpayers become liable for the loss?
    Dr. Dillingham. Yes. The taxpayers, subject to 
appropriations from the Congress. So it is very important that 
that maximum probable loss insurance segment that is required 
of the launch company be accurate and not pull the taxpayer in 
before the taxpayer should be pulled in or is legislated to be 
pulled in.
    Mr. Larsen. OK. Did the GAO find that there are enough 
folks then, in the FAA, to do inspections, to process licenses, 
to do the basic work that they would be required to do?
    Dr. Dillingham. Mr. Larsen, that is hard to say, but what 
the evidence has shown us, and we have talked to FAA about 
this, that in some cases they were unable to do some 10 percent 
of their required inspections for launches. We talked to FAA 
about that, and you know, what are the implications of this? 
What are the safety implications of this?
    The response that we got was that there were no safety 
implications, that the agency prioritized its inspections. I 
could not understand how a critical mission guaranteeing 
safety, and not able to do those inspections, was not, you 
know, something that needed to be dealt with. We told FAA or--
and recommended to FAA, and they are following through on that 
to if they need more resources, that in order to make that case 
to Congress, they had to present better information so Congress 
could evaluate the need, and that had to be based on a more 
detailed explanation of what are the actual duties and 
responsibilities that the agency has and how does it match up 
with the resources they have.
    And as we have seen, and everyone has testified to this 
morning, there is expanding responsibilities, increasing 
launches, but at the same time, the relative size of the FTEs 
is pretty much been level across the board, not matching.
    So a lot of this is on FAA in terms of making that 
presentation to Congress to justify the resources that they 
will need.
    Mr. Larsen. Thank you. I have just one more question.
    Mr. Gold, did you want to weigh in on that question? You 
seem----
    Mr. Gold. I would love to.
    Mr. Larsen. Yeah.
    Mr. Gold. And I really appreciate----
    Mr. Larsen. Sure.
    Mr. Gold [continuing]. The question, Congressman. I believe 
the funding situation is just critical. Congressman DeFazio 
mentioned safety. It is only a matter of time until safety 
suffers due to a lack of funding.
    I would like to compliment your colleagues, Congressman 
Bridenstine and Congressman Kilmer, who have fought to at least 
get the Presidential budget request for the FAA AST this year 
and match what is in the Senate, but as you have heard from 
everyone on this panel, the field is expanding, and to just 
look at launches is a very poor way of judging what the AST 
needs in terms of resources.
    As I said in my testimony, the COMSTAC at every meeting has 
endorsed the need for more funding. When have you seen 
companies asking for more funding for their regulators before? 
If we don't deal with this, I believe the repercussions will be 
dire not just to safety, but maybe a little less important than 
safety but still important, is the health of the industry. The 
AST will be caught in a triage situation where they will 
probably have to look at activities that involve the Government 
first and only then look at the private sector funded 
activities.
    This is the exact opposite message that we want to send to 
entrepreneurs, to innovators who are putting their own money 
into these projects. So not only for safety but for the 
competitiveness of America, we must deal with this issue.
    Mr. Larsen. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman, and you may wonder why 
I am here, but we have a lot of space activity in Alaska, more 
primary launches. But you know, I was just sitting here 
thinking, you know, in 1492, Columbus sailed the ocean blue 
without any regulations, and I am a little concerned in this 
new vision that you have, and thank you, all of you, for this, 
that what we have watched over the years is regulations stifle 
the imagination, the entrepreneurship, and this is a fledgling 
industry. It really is something that is down the road. I will 
never see the final of it, I know that, but it is something I 
believe this Nation is going to be faced with, and it will be 
exciting. It will be something that we can all look upon with 
great pride.
    What I don't want is the baby to be suffocated with too 
many blankets. And all due respect to you, Dr. Nield, the FAA 
doesn't have the greatest reputation in the world right now, 
and we are working on a renewal of that bill, as you know. And 
I just wondered, Dr. Nield, do you think that you should be the 
agency or should we have another group of people that would 
write regulations with the cooperation of the industry itself?
    I am afraid you are going the get some college graduate, or 
some noncollege graduate, involved writing regulation not 
knowing the effect upon industry, which has happened in a lot 
of other agencies. Do you think you are--you are the only one 
in the street now. Do you think you are the appropriate one, or 
should there be another agency to work with the industry to 
make sure it is safe?
    Dr. Nield. We very much believe that we are the right 
people to do this. Although I respect the fact that different 
people have different opinions, I believe that the dual mandate 
to ensure public safety and to encourage, facilitate, and 
promote the industry, and--based on the instructions in the 
law--to regulate only to the extent necessary to meet 
international obligations, public safety, foreign policy, and 
national security interests of the U.S., is the right 
calibration for us. We are strongly interested in seeing not 
only safe, but also successful operations by the industry.
    We believe we are doing a good job of that and certainly 
encourage you to continue to interact with industry to see if 
they agree with that assessment. We believe we can meet that 
dual mandate, ensuring public safety and continuing to support 
the great innovation.
    Mr. Young. Again, my concern is, Mr. Chairman, maybe there 
ought to be some type of direction so that that cooperation 
continues because the agency itself changes personnel and they 
change attitudes--not just you. I am talking about every 
agency--about how the industry should interface with one 
another. The biggest complaint we are having after my years in 
Congress is the people directly affected are never consulted 
when the regulations are being written.
    Does anybody want to comment on that? Mr. Gold?
    Mr. Gold. Thank you, Congressman. And again, I appreciate 
the point you are making. A good example of what you are 
referring to is export control regulations. Had export control 
and ITAR existed for Columbus, he would still be in Europe 
today.
    Mr. Young. Yeah. That is right.
    Mr. Gold. The overbroad and often irrational way that 
export controls were implemented took America from being the 
only country that would conduct commercial space launches to 
often having only one launch per year. Companies would pay 
millions of dollars to meet burdensome Government requirements 
that often had almost no relation to reality, protecting parts 
and components that you could purchase at a Radio Shack instead 
of actually protecting technologies that warrant it.
    So I am very concerned with this topic, but I can assure 
you that there is no better relationship between industry and a 
regulator than what we have with the FAA.
    I think the group that you are almost referring to is 
actually the COMSTAC, that we are the backbone with industry 
that remains, regardless of who is in charge at the FAA AST. I 
have served with COMSTAC under George's predecessor and George, 
and the way that Dr. Nield interacts with us, the way that the 
AST works cooperatively with industry has been tremendous and 
necessary. As Taber points out, there is great diversity in 
technologies, and this is not a well understood field, frankly, 
by Government.
    No one knows more about private sector systems than the 
private sector.
    Mr. Young. That is right.
    Mr. Gold. And I assure you, Dr. Nield has reached out, as 
well as his people, to work hand-in-glove with us. If they had 
not, we would not be here asking for more funding for Dr. 
Nield, I assure you.
    Mr. Young. Well, again, I hope, Dr. Nield, you understand, 
if you get more funding, it is going to go directly to the 
program that has space exploration, not being spread around 
looking at my tail numbers on my airplane, if you follow what I 
am saying.
    So that is just--my time is up, and I thank you, Mr. 
Chairman, for allowing me to participate.
    Mr. LoBiondo. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Don't worry. The tail 
numbers are available commercially on a realtime basis, so you 
don't have to worry about the Government there looking at you, 
Don.
    I just want to return to the question. I understand that we 
want to promote this industry, and we do. You know, this is 
great for the U.S. to maintain our leadership in space, but the 
question is, why would we have the same agency promote and 
oversee safety? Why wouldn't it be the Department of Commerce 
or some other part of the Government that would do that?
    Again, I mean, no offense, Dr. Nield, but I heard exactly 
those same things a couple of months before ValuJet when my 
amendment was defeated, and then my colleague said: Oops, that 
doesn't look too good, does it?
    And so why wouldn't it be appropriate to have another 
agency of the Federal Government like the Department of 
Commerce, promote?
    Dr. Nield. Thank you for that question. I think an 
important part of that is exactly what do we mean by the 
terminology, and so let me explain how we interpret that 
phrase, ``encourage, facilitate, and promote,'' by saying what 
it is not. It is not favoring one company over another. It is 
not cutting corners. It is not compromising when it comes to 
public safety. In fact, we do have that perfect safety record 
with 290 licensed or permitted activities.
    Mr. DeFazio. The qualification being no member of the 
public has been killed.
    Dr. Nield. Which is the job that Congress has given to us.
    Mr. DeFazio. There is some criticism of the NTSB regarding 
the process that went forward, you know, the construction of 
the vehicle before there was any review by FAA AST, and the 
whole human factors interaction issue in which some FAA AST 
technical staff member reported their questions did not 
directly relate to public safety, were filtered by FAA AST 
management to reduce the burden on scale. Well, unfortunately, 
someone died.
    So, that leads me exactly to the point I am making. That 
pressure was exerted and they complied because of your 
promotional mandate.
    Dr. Dillingham, do you have anything to comment on this? Is 
there another agency of Government that could do the promotion 
while the FAA could just focus on safety and maybe they 
wouldn't need to hire a bunch more people if they just focused 
on that part.
    Dr. Dillingham. Thank you, Mr. DeFazio. In one of our 
earlier reports, we made that exact point, that there is either 
inherent or potential conflict with the dual mandate of 
promotion and safety oversight. We also made the recommendation 
that FAA work with the Department of Commerce to come up with a 
memorandum of understanding that would in fact delineate which 
of the agencies would be responsible for what part of promotion 
in line with their statutory--their statutory situation, as 
well as their mission.
    So bottom line, we still think that that is something that 
needs to be looked at. It is hard to know where that line is 
drawn, but the more the industry expands with all the different 
kinds of vehicles and technologies, it is becoming--it is still 
a risk and will become even more of a risk.
    Mr. DeFazio. OK. Thank you.
    Now, back to this, the insurance. I am struggling with this 
a little bit. When did FAA set the $500 million cap on acquired 
insurance?
    Dr. Dillingham. FAA developed the methodology to set the 
level of insurance in the mid-1980s, I think.
    Mr. DeFazio. OK. And they also have this nub then where you 
have the Federal Government indemnification, which back then I 
think was estimated to be $1.5 billion, but now we are 
adjusting that part for inflation and saying the potential 
Government indemnification, subject to appropriation--might be 
a problem there--is $3.06 billion but we haven't talked about 
the $500 million and indexing that to inflation.
    So why are we indexing the Government, the taxpayer's 
liability to inflation but not the required acquisition of 
insurance?
    Dr. Dillingham. Dr. Nield.
    Dr. Nield. My understanding is both of those numbers are 
inflation adjusted. I could be incorrect about that but----
    Mr. DeFazio. I don't know. My understanding is from the GAO 
documents that it was set at $500 million and that it hasn't 
been indexed.
    Mr. Lopez-Alegria. Congressman, if I could just comment. I 
think the reason that we really don't know the answer to that 
question is because that number practically has never been 
approached. It is actually set by the MPL with a cap of $500 
million, and if the maximum probable loss is calculated to be 
less that, then the question has never been asked, and as I 
understand it, that has been the case.
    Mr. DeFazio. OK. So I mean, wouldn't this vary per 
operation, depending upon whether you are launching out of a 
heavily populated area, whether you are launching in a very 
remote area, the trajectory that you are going to use, et 
cetera, shouldn't it vary on each one?
    Dr. Nield. Yes, it does. We calculate a separate maximum 
probable loss for each vehicle, each location, and as long as 
it is less than that cap of $500 million, then that is the 
number in terms of how much insurance needs to be purchased.
    Mr. DeFazio. OK. But if someone were doing something that 
you thought was going to exceed $500 million, you would just 
say: Well, you buy $500 million and the Government will take 
care of the rest?
    Dr. Nield. That is the general principle, although I think 
it is important to recognize that it is a conditional payment 
of excess third-party claims. It is not a guarantee. Congress 
would need to be persuaded that payment is the appropriate 
thing to do to reimburse the third parties that have suffered 
under that condition.
    Mr. DeFazio. OK. All right. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. Where are we in 
relation to other countries, Dr. Nield? Are any other countries 
further along in this area than we are?
    Dr. Nield. There is a bit of a dichotomy. It was mentioned 
previously that we are currently relying on the Russians to 
take our astronauts to the International Space Station, 
although industry is working hard to bring that capability back 
to the U.S.
    But in terms of commercial space transportation 
specifically, including suborbital spaceflight, the U.S. is far 
and away in the lead right now. That is because of the 
creativity and innovation of our American industry, and also, 
frankly, I believe because of the proactive way that we have 
set up a regulatory framework that lets everyone know what is 
expected, what the rules are going to be. You can factor that 
into your planning, and you can proceed under an informed 
consent regime as opposed to insisting upon zero risk. That is 
a different environment than any other country has put into 
place.
    Mr. Duncan. Well, I would have assumed that we were ahead, 
particularly you talked about the Russians. Their economy is in 
tatters, so I wouldn't expect that there would be a lot of 
commercial space programs over there, but I am like Mr. 
DeFazio, I was going to ask some questions about this 
indemnification procedure.
    According to the information we have, it has been in effect 
since 1988, 28 years now, and it has not been invoked, yet it 
is still in the law till 2025.
    I know there are some businesses and industries that the 
Federal Government insures but not many. Most businesses that 
we would--that I could go into or that anyone could go into are 
not insured. They are not backed up by the Federal Government.
    Why is it still necessary that we place this potential 
liability on the taxpayers? I mean, this is--maybe it was done 
at the first to encourage a new industry, but when it has gone 
on this long----
    Dr. Nield. Thank you for that question. My understanding is 
that indemnification is something that is very important to 
industry in terms of being internationally competitive. Most 
other nations have a much more supportive environment in terms 
of an indemnification regime. The other thing to remember is 
that in that period of time, the 28 years, the U.S. regime has 
never resulted in the cost of a single dime to the taxpayers 
because of the safety culture and the structure that we have 
set up. So, it is working well, in our opinion.
    Mr. Duncan. Yes.
    Dr. Dillingham.
    Dr. Dillingham. Mr. Duncan, you spoke about Russia. And I 
think it is important to note that in terms of indemnification, 
where we have a cap of $3.06 billion, there is no cap in Russia 
so they have a two-tier system. Once the launch company reaches 
its goal, then the Government will support any amount of damage 
that occurs. And it is one of the concerns that the U.S. has in 
terms of competitiveness of launches, that if they have a 
better regime of indemnification and insurance, that companies 
may move towards offshore rather than U.S. launching them. So 
indemnification is really important.
    Mr. Duncan. All right. Thank you very much.
    Mr. LoBiondo. Mr. Carson.
    Mr. Carson. Thank you, Chairman LoBiondo and Ranking Member 
Larsen. This is for all the witnesses. Congress previously 
imposed a moratorium to prevent the FAA from issuing more 
robust regulations on the operational safety of commercial 
spaceflight until 2023. And the rationale was, essentially, to 
avoid overregulating an emerging industry in its infancy.
    Do you think that this moratorium needs to be revisited? 
And should it end earlier or be extended? Based on what is 
actually happening in the industry today, what do you all think 
about updating the operational safely rules currently in place?
    Mr. MacCallum. I think it is important to make the system 
that we are in right now permanent.
    I want to address a point that Ranking Member DeFazio 
brought up, which I think elucidates this. AST regulates the 
safety of uninvolved public property, national airspace. So 
these activities, these launches, are very heavily regulated. 
We have chosen not to regulate the safety of the passenger 
because it is, frankly, an experience. It is not common 
carriage. We are not taking a person from one place to another.
    As an experience, I believe it is not in the public's 
interest to have the safety of the participant regulated. 
Furthermore, it is not in the public's interest to regulate the 
safety of a test pilot developing new technologies. These are 
risks we want our industry to take.
    And so what happened with Virgin Galactic is tragic. But it 
is the kind of thing that happens as we develop new 
technologies. And it is not in any way the fault of AST or Dr. 
Nield's leadership that that happened. Dr. Nield was regulating 
to the letter of the law and, I believe, has no fault. And we 
should not be--you know, it is Monday morning quarterbacking 
both looking at the report from--after the accident or the work 
that was done at AST. I believe they have done a great job, and 
we should maintain this regulatory regime because it is 
building a great industry. And giving it more stability is 
appropriate.
    When it goes to common carriage, selling a ticket from one 
point to another, New York to Sydney, then I believe we are and 
appropriately, in accordance with the regulations, in a place 
where we should regulate the safety of the passenger. But only 
then.
    Mr. Gold. And if I could just chime in as well, 
Congressman. To echo Taber's sentiments, no new frontier has 
ever been settled without loss of life. It is unfortunate. It 
is tragic. It has happened before, and I am afraid it will 
happen again. Again, what Dr. Nield and AST did was not driven 
by their desire to promote the industry. It was the legislative 
authority that they were given. This is a decision that 
Congress has made, the administration has made, and unless that 
changes, there is nothing more that Dr. Nield can or should do 
in that arena.
    And I believe that we have struck a good balance in this 
area. The COMSTAC has set up the Standards Working Group, and I 
would welcome our Vice Chair to say more about what we in 
industry are doing here. But what remains undone and what I 
would like to say in response to a previous question about are 
we behind foreign countries, you have heard many of us talk 
about this article VI concern of authorization and continuing 
supervision. Other countries have already dealt with that issue 
and dealt with it well.
    I just recently spoke to some colleagues and friends from 
the United Arab Emirates who are busy setting up a regime that 
does bolster and support safety but also creates an environment 
that is conducive to innovation, to growth. And if the United 
States can't even deal with this simple fundamental issue of 
addressing an existing international obligation, well, then 
where are we as a country?
    So rather than looking at the moratorium, which I think we 
can have a discussion about, this is a near-term question that 
has to be dealt with with alacrity, and then I think we can 
continue to investigate a moratorium and look at what the 
COMSTAC and Commercial Spaceflight Federation and industry as a 
whole are doing relative to developing industry standards.
    Dr. Dillingham. As you know, the moratorium was recently 
extended. But as the U.S. is operating under that moratorium, 
one of the things that is supposed to happen during the course 
of that is the collection of operational data and experiences, 
which would in fact feed into the development of regulations 
when that time is appropriate and Congress makes that 
pronouncement. However, from what we can learn, there has been 
not a lot of coming together of presenting operational 
information from the various companies for competitive reasons 
or other kinds of reasons.
    So as the moratorium goes forward, it is going to be 
important that the most safety related operational information 
is available to FAA so that it can in fact have a basis for 
regulation when that time comes.
    Mr. Carson. Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Mr. Hanna.
    Mr. Hanna. Thank you, Chairman.
    Dr. Nield, you have heard the testimony, I know, and it is 
an interesting dynamic. A moratorium seems to be the antithesis 
of--and yet at the same time agree with Mr. MacCallum that if 
you need a moratorium, then you are not capable of doing the 
job. What would you wait for? And I am thinking of the Next 
Generation Aviation, which you are familiar with, which is 20 
years behind now.
    Mr. MacCallum, this industry, there are many different 
groups in it. It is a great opportunity, depending on who you 
are and what your level of risk you are able to take. But, I 
mean, is it possible to do everything everybody wants to do 
here successfully without having a great deal of latitude in 
the process? Because there are multiple ways of doing this and 
ideas. And we have seen that over the last 5 or 10 years.
    Mr. MacCallum. I believe the current system that protects 
the public, national airspace, private property, is actually 
working very well. The safety record speaks for itself. I 
believe we should not be regulating where we don't need to 
regulate. We certainly should regulate where common carriage 
exists.
    Mr. Hanna. But we are not behind yet.
    Mr. MacCallum. I am sorry?
    Mr. Hanna. Internationally, we are not behind yet. But 
``yet'' being the operative word.
    Mr. MacCallum. Well, I believe one should never 
underestimate one's competition. And it is quite easy for 
emerging countries to develop sets of laws that are more 
favorable than ours. The instability that we have in calling 
something a temporary moratorium or learning period makes other 
countries attractive.
    Mr. Hanna. It looks like a cheap excuse.
    Mr. MacCallum. I believe stability and regulation is one of 
the foundations on which our economy is grown. And we should 
continue that prerogative.
    Mr. Hanna. What do you think, Dr. Nield? Can you manage all 
that?
    Dr. Nield. Congress has decided to extend this moratorium 
until 2023. In the ideal world, though, I think we should be 
working right now to set up what the permanent framework looks 
like. If that was done appropriately with, for example, a top 
level regulatory structure where the details of exactly what 
you have to do is based on industry-developed consensus 
standards, then I think you would have the best of both worlds. 
Because you would have the Government oversight, and you would 
have a permanent regime that everyone can count on. The details 
of what is required would be developed by the people who know 
it--who have built, designed, and are operating these systems. 
So to the extent that we can encourage progress along that 
approach, I think that would be the best of all worlds.
    Mr. Hanna. Mr. Gold.
    Mr. Gold. Congressman, I think it is important to remember 
just how young this industry is. We don't even know what we 
don't know, in many instances. There are a great diversity of 
technologies and approaches. And as Dr. Nield says, and the 
COMSTAC has been proactive in working with the AST, we need to 
use this time with the moratorium to figure out what should be 
done, what can be done. And it is ultimately a balance.
    You know, we have international competition here, safety 
over there, and we have to work together as industry and 
Government to find that Goldilocks zone where we protect the 
uninvolved public and protect everyone else, yet don't deter 
industry. And I think we have had a very collegial and a very 
productive relationship between AST and Government so far.
    Mr. Hanna. Does everyone agree with that?
    Mr. MacCallum. This is the foundation of my proposal to 
have two parallel regulatory regimes. Because it takes the heat 
out of the situation now where industry is looking down the 
road at the end of the moratorium and regulations are changing, 
but we are spending huge amounts of money. Over almost $3 
billion was invested just in 2015 in developing vehicles. But 
we don't know what those new regulations might be, so it is an 
inherent threat to the industry.
    By creating a parallel regime that adopts industry 
standards and does exactly what Dr. Nield has just recommended, 
by allowing a voluntary graduation from a license to an 
extended license, I think we create the environment that both 
encourages new technologies that may come along in 8 years to 
work in a regulated environment where there is informed consent 
and allow the graduation to one where the safety of the 
participant is regulated.
    Mr. Hanna. Thank you. I yield back.
    Mr. LoBiondo. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. And thank the witnesses 
for being here, especially Mr. Gold. I think you have some 
familiarity with southern Nevada from your time at Bigelow. A 
lot of people who come to my district get transported to 
another dimension, but they don't usually think about it as 
space travel. So appreciate your knowledge.
    I would like to address my question to you, Mr. Gold, and 
to Dr. Nield. You know, we are just a couple of weeks away from 
the reauthorization again of the FAA bill. The Senate has 
passed a version. And we have a version over here on the House 
side that calls for a privatization of air traffic control 
system. Part of the problem with that is that it puts the 
decisionmaking in the hands of a commission or a committee that 
is dominated by just primarily one special interest and leaves 
out a lot of the players, including commercial space industry.
    So I would ask you, Mr. Gold, if you would be satisfied 
with a system that where they determine rates and access and 
every bit of use of airspace where you are not at the table? 
And I would ask Dr. Nield if he would comment on kind of the 
relationship between the Office of Commercial Space and air 
traffic. And I know it is a substantial one, and what kind of 
challenges would be posed if we moved to this new system that 
is in the House bill?
    Mr. Gold. First, Congresswoman, let me congratulate you and 
your constituent Bigelow Aerospace and everyone in southern 
Nevada who worked to get the Bigelow Expandable Activity Module 
onto the International Space Station. I used to say that 
Bigelow Aerospace was the biggest gamble in Las Vegas, but no 
longer.
    Ms. Titus. That is right.
    Mr. Gold. And it is going in a great direction. And 
congratulations to you.
    Again, we have talked a lot about regulatory risk, you 
know, choking the child in its crib. And I think what you raise 
is an excellent example of this. Again, we are dealing with a 
young industry, one that is just leaving the cradle and 
beginning to walk. And if we suffocate it with regulations, and 
particularly regulations where we are not able to interact, to 
have that seat at the table, to provide the advice, because, 
again, this is not the aviation industry. These are not mature 
systems that Government officials have great experience and 
knowledge of. Most of the experience with commercial 
spaceflight systems remain only in that company itself because 
they are so unique and so different and so immature at this 
time.
    And part of the reason that you see myself and others in 
industry be so supportive of Dr. Nield is not only due to his 
excellent leadership, but Dr. Nield and his predecessors have 
always had a seat for us at the table. It is part of why I am 
here at this hearing with the COMSTAC. And any system that does 
not allow us that insight, that transparency, and that voice, I 
would strongly be against.
    Ms. Titus. Thank you.
    Doctor.
    Dr. Nield. Yes, I would just point out that the FAA has a 
strategic initiative that is intended to integrate commercial 
space activities with other users of the National Airspace 
System. That includes UAS flights as well as commercial space 
launch and reentry. We are trying to make sure that you can 
operate both kinds of systems without negatively impacting 
others. We have been working very closely with the Air Traffic 
Organization [ATO] for what is happening today, and with the 
NextGen office, including the FAA technical center, for what we 
want to happen tomorrow.
    Based on that close collaboration and the research that we 
are doing right now, I feel pretty confident that we will be 
able to continue that relationship, regardless of what Congress 
decides to do on the future of the ATO.
    Ms. Titus. So you think it would work out if you privatize 
air traffic controllers and they don't have a seat at the table 
and you are kind of taken out of the picture?
    Dr. Nield. I am confident that we can make it work 
whichever way Congress decides to proceed.
    Ms. Titus. OK. Thank you.
    Mr. LoBiondo. The gentleman from Georgia.
    Mr. Woodall. Thank you, Mr. Chairman.
    I have heard a common theme of a new frontier and emerging 
industry, young industry. Mr. Lopez-Alegria, help me understand 
what the tipping point is when it does move to the common 
carriage that Mr. MacCallum mentioned. When do we stop having 
the conversation about an immature industry and start having 
the conversation about safety and a mature industry that is 
ready for commercial travel?
    Mr. Lopez-Alegria. Thanks for that question, Congressman. I 
think what Mr. Gold referred to before, in the COMSTAC's 
Standards Working Group, is that we have started to lay out 
this roadmap to regulation. And we have identified some 
milestones, which clearly don't have dates or anything 
associated with them.
    The first step is to develop consensus industry standards 
with the participation of FAA, AST, and any stakeholder, 
Government, private, doesn't matter. At some point, and I will 
get back to when that point is in just a second, we could use 
that standard--those standards as a basis of some sort of 
primitive regulation per se. And at some point when we get to 
the time of where common carriage, as Mr. MacCallum has pointed 
out, it might be appropriate to certificate these airplanes, 
like the FAA does with commercial carriers. That obviously is 
way out in the future, and we at this table would be extremely 
excited to be here when that happens. But it is really far 
away.
    Mr. Woodall. Will it be obvious to me as an outside 
observer what the difference is between an adventurer and an 
explorer and someone who is seeking common carriage? How do I 
tell that transition is happening?
    Mr. Lopez-Alegria. Well, I think the concept of common 
carriage means you are going from sort of point A to point B 
routinely. I mean, how we define that, I think, is sort of in 
the eyes of the beholder. But I think there will be a mechanism 
to make that judgment when the time is right.
    On the first tipping point, though, between when we do not 
issue regulations for occupant safety and when we do, right now 
there is a moratorium that will expire in 2023 unless it is 
extended again. It was originally supposed to expire in 2012. 
And it didn't expire because when it was written in 2004, we 
thought, well, in 8 years we will be there. Well, 8 years came 
and went and we weren't there. And then 3 more years came and 
went and we still weren't there. And now we have decided it is 
going to take another 8 years. And maybe 8 years isn't long 
enough either.
    I think the point is, it isn't a date. It's an accumulation 
of experience and gathering the data that Dr. Dillingham 
referred to that we can make--we have the basis on which to 
make fundamental, sound regulation helped with these standards. 
So the CSLCA that was referred to by the chairman, asked for a 
report to identify what are the metrics. What is it? If it is 
not a date, is it a number of takeoffs and landings? Is it so 
many hours of flight time? And they are off working on that, 
and I think that report is due later this year. But that is the 
kind of answer that we hope to get.
    Mr. Woodall. Mr. MacCallum, I agree with you. I think a 
stable regulatory foundation is what our economy is built upon. 
But I have looked at your Web site. I have thought about 
packing a picnic basket and getting a few friends and coming 
over. Because I think I understand balloon travel. And I would 
be regulated for safety today on anybody's balloon but yours.
    What was that process for the FAA that distinguished what 
you are doing as space travel as opposed to just the common 
balloon experience I would expect?
    Mr. MacCallum. So we looked at being certified as a hot air 
balloon is certified. The difficulty is that those regulations 
are built around a vehicle that goes a few thousand feet in the 
air under a wicker basket with a cotton envelope. We are going 
30 kilometers up into the edge of space in a balloon the size 
of a football stadium. So it is a whole new technical realm. 
And there really wasn't a process in the certification side, 
aviation safety side of the FAA to really encompass what is 
fundamentally a spacecraft hanging under a very large balloon 
at the edge of space.
    However, the regulatory system that has been set up for 
commercial space where the public is protected, property, 
national interests are protected, but we are allowed to develop 
a new technology under that regulatory regime, is frankly what 
allowed the investment and our progress to go forward. Without 
that kind of regulatory regime, we would be unable to move 
forward because we would have to develop the FAA's 
understanding of our technology in a certification process that 
would, frankly, take too long and have too many inherent risks.
    I think we know when we have gone from an adventure to 
travel under common carriage by the very definition of common 
carriage in the regulations, which is that you are holding out 
to take a person from a point to a point. An easier way to 
think of this if I am buying a ticket because my boss told me I 
had to get to Sydney in an hour, then that is common carriage 
because I am not taking that flight because of the adventure 
and the experience. I am taking that flight because my boss 
told me to. And in that case, it is reasonable to regulate the 
safety of the occupants.
    If I am just going to space or I am a researcher or I am 
going for the experience, I am doing it because that is either 
my profession or a more desired experience. And I think we can 
make that distinction pretty clear, and there will be a market 
forever for people who want to go experience space. And the 
existing regulatory regime is perfect for that experience, much 
like any other sport that we see where the participant's safety 
is not regulated, but the impacts to the broader community is.
    Mr. Woodall. I thank you all for your expertise.
    Mr. Chairman, I yield back.
    Mr. LoBiondo. Thank you.
    Dr. Nield, can you describe the current process for 
alerting air traffic control to a spacecraft that will reenter 
the atmosphere and pass through the NAS?
    Dr. Nield. Yes. Our current launch and reentry activities 
require us to work very, very closely with the Air Traffic 
Organization. We engage them from the very start. When someone 
comes in and wants a launch license, part of that license is 
the requirement for a letter of agreement between the operator 
and the ATO on responsibilities relative to deciding what days, 
what times, and what conditions those activities can take 
place. Closer to the launch, the agency is putting out notices 
to airmen and notices to mariners 48 hours ahead of time. As 
appropriate, the agency would either implement the flight under 
restricted areas or have temporary flight restrictions to 
ensure that the launch or reentry does not negatively impact 
any of the existing air traffic. So, it is a continuing process 
and it is working very well.
    In the future, we want to try to automate that process so 
it is not such a manual process with telephone calls and typing 
in data on the keyboard. Rather, we can take realtime data and 
have that directly show up on the air traffic controllers' 
screens.
    Mr. LoBiondo. Thank you.
    Dr. Dillingham, according to the August 2015 report your 
testimony is based on, AST's 2015 business plan contained a 
plan to determine the feasibility of a voluntary safety 
reporting system which has been very successful in enhancing 
commercial aviation safety.
    In your view, has the FAA made any progress in establishing 
such a system for commercial space transportation sector?
    Dr. Dillingham. Mr. Chairman, from what we were able to 
learn, FAA made an effort to establish that voluntary reporting 
system. However, they did not receive the kind of cooperation 
that they needed from the launch companies themselves, meaning 
that they were not really forthcoming with operational data for 
concerns with competitiveness and proprietary information.
    As of the last time we spoke to FAA, that had not changed. 
It may require some kind of legislative relief in order to 
protect that kind of information if the companies decide to 
share it.
    Mr. LoBiondo. Anybody else on the panel want to comment on 
that?
    Mr. Lopez-Alegria, in your testimony, you stated the fact 
that the occupant safety is not yet regulated in commercial 
spaceflight does not mean that it is not safe. Can you 
elaborate on that?
    Mr. Lopez-Alegria. Well, I think the--you know, regulation 
doesn't make things safe and not regulating doesn't make them 
not safe was a sort of simple point of what I was trying to get 
at. I think we have sort of talked at length here about why we 
think the current regime is appropriate. In fact, premature 
regulation could reduce safety by eliminating viable technical 
solutions to problems that would--what would be more effective 
than what might be imposed by a Government regulation.
    So the--you know, a lot of people point to the unfortunate 
accident by Scaled Composites and say: Well, there is proof 
that we are not safe. Again, I think that AST did the job which 
they were directed to do by Congress. These sorts of accidents 
are part and parcel of any development program. I don't need to 
point back to Apollo I or the two space shuttle accidents. You 
know, this is a tough business, and it is dangerous. My point 
is that regulating it right now would not make it safer.
    Mr. LoBiondo. OK. Thank you.
    Mr. Larsen.
    Mr. Larsen. Yeah, just a closing statement, Mr. Chairman.
    It has been 7 years since this particular committee or 
subcommittee has had a hearing on commercial space. Other 
committees have, but we haven't really explored our 
jurisdiction on this in 7 years. And I don't want it to be 7 
years before we do this again.
    There is a lot to absorb. I think as the industry grows, 
and we need to, we should put as much attention into this as we 
are putting into things like UAS in order to stay on top of 
these issues. So I hope we can have a followup or explore some 
new issues or other issues in this--certainly perhaps, knocking 
on wood--early on in the next Congress.
    Mr. LoBiondo. Are you also volunteering for an experience?
    Mr. Larsen. I have enough experiences at this job every 
day. And this--I think this is about as close as I am going to 
get to commercial space in my lifetime, right here.
    Mr. LoBiondo. I want to thank the panel very much. It was 
very enlightening. We appreciate your expertise. We appreciate 
your service. And we hope to be in touch.
    The hearing is adjourned.
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
   
    
                                    
</pre></body></html>
